<html>
<title> - NOMINATION OF ROSLYN A. MAZER</title>
<body><pre>[Senate Hearing 112-334]
[From the U.S. Government Publishing Office]







                                                        S. Hrg. 112-334

                     NOMINATION OF ROSLYN A. MAZER

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE



                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

NOMINATION OF ROSLYN A. MAZER TO BE INSPECTOR GENERAL, U.S. DEPARTMENT 
                          OF HOMELAND SECURITY

                               __________

                           NOVEMBER 15, 2011


        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





                  U.S. GOVERNMENT PRINTING OFFICE
72-556 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  JERRY MORAN, Kansas

                  Michael L. Alexander, Staff Director
      Christian J. Beckner, Associate Staff Director for Homeland
                   Security Prevention and Protection
               Kristine V. Lam, Professional Staff Member
               Nicholas A. Rossi, Minority Staff Director
                   Jennifer L. Tarr, Minority Counsel
                  Trina Driessnack Tyrer, Chief Clerk
                 Patricia R. Hogan, Publications Clerk
                    Laura W. Kilbride, Hearing Clerk















                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     3
    Senator Collins..............................................     4
    Senator Akaka................................................    11
    Senator Carper...............................................    14
Prepared statements:
    Senator Lieberman............................................    25
    Senator Collins..............................................    26

                               WITNESSES
                       Tuesday, November 15, 2011

Hon. Benjamin L. Cardin, a U.S. Senator from the State of 
  Maryland:
    Testimony....................................................     1
    Prepared statement...........................................    28
Roslyn A. Mazer to be Inspector General, U.S. Department of 
  Homeland Security:
    Testimony....................................................     5
    Prepared statement...........................................    30
    Biographical and financial information.......................    34
    Responses to pre-hearing questions...........................    45
    Letter from the Office of Government Ethics..................    75
    Response to post-hearing questions for the Record............    78

                                APPENDIX

Ed Haugland, Assistant Inspector General for Inspections, Office 
  of the Director of National Intelligence, prepared statement...   108
Kimberley A. Caprio, Former Assistant Inspector General for 
  Audits in the Office of the Director of National Intelligence, 
  prepared statement.............................................   111
Letters of support from:
    Charlene Barshefsky, WilmerHale..............................   118
    Dennis C. Blair, Former Director of National Intelligence....   120
    Kermit S. Eck, Partner, Cooke & Bieler.......................   122
    Mark Ewing, Chief Management Officer, Office of the Director 
      of National Intelligence...................................   124
    Fred F. Fielding, Morgan, Lewis & Bockius....................   126
    Glenn A. Fine, Former Inspector General of the U.S. 
      Department of Justice......................................   127
    Jamie S. Gorelick, WilmerHale................................   129
    Mary S. Jones, Vice President and Treasurer, Union Pacific 
      Corporation................................................   131
    Peter D. Keisler, Sidley Austin..............................   133
    John F. Kimmons, Lieutenant General, U.S. Army (Retired).....   135
    Christopher A. Kojm, Chairman, National Intelligence Council.   137
    Robert S. Litt, Office of General Council, Office of the 
      Director of National Intelligence..........................   138
    Lloyd Raines, Principal, Integral Focus......................   140
    Eric M. Thorson, Inspector General, U.S. Department of the 
      Treasury...................................................   141

 
                     NOMINATION OF ROSLYN A. MAZER

                              ----------                              


                       TUESDAY, NOVEMBER 15, 2011

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 3:19 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Akaka, Carper, Collins, and 
Coburn.
    Chairman Lieberman. The Committee will come to order. Good 
afternoon and welcome to the hearing. I apologize for being 
late, but Senator Collins and I were both in the Armed Services 
Committee, and we had a special meeting called by Chairman 
Levin and Senator McCain.
    Senator Cardin, unless you really have some deep desire to 
hear the opening statements by Senator Collins and me, we would 
be happy to have you do your introduction now.
    Senator Cardin. I assume you will have that emailed to me.
    Chairman Lieberman. We may have it embossed and engraved. 
We will send it to you in some suitable fashion.

  INTRODUCTION OF NOMINEE BY HON. BENJAMIN L. CARDIN, A U.S. 
               SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Thank you, Senator Lieberman and Senator 
Collins. I really appreciate that courtesy. It is a pleasure to 
be back before this Committee for a really enjoyable thing for 
me to do and that is to introduce a person whom I have known 
for a long time. I have known her family for a long time.
    It is a real pleasure for me to introduce Roslyn Mazer to 
this Committee, a nominee to be the Inspector General (IG) for 
the Department of Homeland Security (DHS). I have known her 
family. I know her commitment to community service, and I 
strongly endorse her nomination for confirmation.
    Roslyn Mazer, I believe, is ideally qualified for the 
position. Almost her entire professional life has been spent in 
public service, nearly a decade in the Inspector General 
community.
    She received her B.A. from Syracuse University, Phi Beta 
Kappa, and her J.D. from Columbus School of Law at Catholic 
University. Between 1993 and 2009, she held senior positions at 
the Department of Justice (DOJ), including 7 years in the 
Office of the Inspector General's Oversight and Review 
Division.
    In that capacity, she led reviews of the Federal Bureau of 
Investigation's (FBI) abuses of national security letter 
authorities, leading to two reports mandated by Congress in the 
USA PATRIOT Improvement and Reauthorization Act of 2005.
    I must tell you that, as a former chairman of the Terrorism 
and Homeland Security Subcommittee on the Judiciary Committee, 
I found these reports to be very useful in our committee's 
deliberations and briefings and on the reauthorization of the 
expiring Patriot Act authorities.
    I know that Senator Coburn served on that committee, and I 
know that we all found those reports to be helpful in the work 
that we did.
    At the Justice Department, she also conducted 
investigations of high-level misconduct by officials and 
employees. She also led a review team on the FBI's 
implementation of the Attorney General's guidelines. She also 
held several specialized positions at the Department of 
Justice, including that of Associate Deputy Attorney General 
and the President's Chair of the Interagency Security 
Classification Appeals Panel.
    I would also note that she received the Attorney General's 
Award for Distinguished Service, the Award for Excellence by 
the President's Council on Integrity and Efficiency in 
Government, and the Department of Justice Office of Inspector 
General's Award of Merit.
    Mr. Chairman, Roslyn Mazer already had a list of 
significant accomplishments before taking her current position 
in 2009, which is the Inspector General of the Office of the 
Director of National Intelligence (ODNI). Ms. Mazer serves 
concurrently as the Chair of the Intelligence Community 
Inspectors General (ICIG) Forum, working with all intelligence 
community (IC) elements to fulfill community-wide objectives 
established by Congress.
    Roslyn Mazer was involved in both unclassified and 
classified reviews of the President's Surveillance Program, 
which again I found useful as a former member of the Judiciary 
Committee as we considered how to overhaul the Foreign 
Intelligence Surveillance Act (FISA) to provide for greater 
oversight by Congress and the Foreign Intelligence Surveillance 
Court.
    In her current position, Ms. Mazer has been instrumental in 
helping the Office of Inspector General (OIG) prepare to 
transition the office to become the Inspector General for the 
intelligence community.
    In my view, Mr. Chairman, Ms. Mazer serves as a shining 
example of public service and doing what is best for our 
country.
    I would just add on a personal note that I am very proud of 
her connections to the State of Maryland. Ms. Mazer grew up in 
Baltimore and is a proud graduate of Pimlico Junior High 
School. She is also a proud graduate of Western High School, 
which is the oldest public all-girls school in the United 
States, founded in 1844. She is a product of the Baltimore city 
public school system, and we are proud of that.
    I also take great pride in the Mazer family. I particularly 
want to acknowledge Ms. Mazer's father, William Mazer, who is a 
close personal friend and is a great person in our community.
    Just a little sidebar on that, Mr. Chairman. William Mazer 
is well known for his politics in our local synagogues. He is 
well prepared for those types of challenges. I also want to 
acknowledge her husband, David Holzworth. Public service is a 
family sacrifice, and we thank them for their willingness to 
continue to serve our country.
    Chairman Lieberman. Thanks very much, Senator Cardin. That 
was very thoughtful and obviously a personally supportive 
statement. I appreciate it.
    My own experience is that synagogue politics can be much 
more intense than regular politics, and so that is quite a 
statement on behalf of Mr. Mazer.
    Thank you very much. You are obviously free to stay but I 
know you have a busy schedule. We appreciate very much your 
coming by.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. It is a pleasure to welcome everyone to 
this hearing. Today, as Senator Cardin made clear, we are 
considering the nomination of Roslyn Mazer to serve as 
Inspector General of the Department of Homeland Security, 
which, of course, is the focus of the activities of this 
Committee; and therefore, the nomination is an important one to 
us.
    The DHS Inspector General is responsible for overseeing 
more than $55 billion in annual spending by the department and 
investigating suspected waste, fraud, and abuse of those funds.
    The IG at DHS carries out audits and inspections of 
departmental activities that provide important insight into the 
department's effectiveness and helps inform our oversight and 
that of the relevant House committees.
    The IG is also charged with investigating misconduct among 
DHS employees, including the significant, unfortunately, and 
growing problem of drug trafficking organizations attempting to 
corrupt employees of the U.S. Customs and Border Protection 
(CBP) and Immigration and Customs Enforcement (ICE) agencies.
    In nominating Ms. Mazer to be the IG at DHS, I think 
President Obama has chosen someone with a really impressive 
record, a long and distinguished career as a lawyer in private 
practice and at the Department of Justice, including 7 years at 
the DOJ Office of Inspector General where she led important 
reviews of the FBI's use of national security letters and its 
compliance with the Attorney General's investigative 
guidelines.
    In recognition of her work on the FBI's use of national 
security letters, she received the Department of Justice's 
Distinguished Service Award and the President's Council on 
Integrity and Efficiency Award for Excellence.
    In 2009, a former Director of National Intelligence (DNI), 
Dennis Blair, selected her to serve as DNI Inspector General; 
and she has served in that position for the last 2\1/2\ years.
    The record of the Committee has very strong statements of 
support from people with whom Ms. Mazer has worked, including 
the former IG at the Department of Justice, Glenn Fine, and the 
current Director of National Intelligence, James Clapper.
    So, we look forward to hearing from you today and learning 
more about your vision and priorities for the Office of 
Inspector General at DHS. Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman.
    We convene today to consider the nomination of Roslyn Mazer 
to become the next Inspector General of the Department of 
Homeland Security.
    This Committee's jurisdiction includes not only oversight 
of the department, but also the work of Inspectors General 
government-wide. Inspectors General are a vital part of the 
Federal Government. They conduct oversight of Federal agencies, 
identify program vulnerabilities, expose fraud and improper 
payments, and promote effective government.
    Most recently, Ms. Mazer served as the Inspector General 
for the Office of the Director of National Intelligence. She 
also served as the Chair of the Intelligence Community 
Inspectors General Forum, working with all intelligence 
community elements, including DHS.
    The ODNI Inspector General's Office employs only 
approximately 35 people and produces several reports annually. 
In contrast, the DHS Office of Inspector General employs more 
than 670 employees, making it the fifth largest IG office in 
the Federal Government.
    The DHS OIG issues about 120 reports each year. My point is 
that there is an enormous difference in the scope, activity 
level, and management challenges of the two offices.
    Given the mission of DHS and the size of its IG office, it 
is imperative that we have an Inspector General who not only 
has extensive experience, but also is a skillful manager. The 
IG must empower employees to do their jobs and ensure timely, 
high-quality products.
    The nominee's background is, in many ways, impressive and 
includes considerable experience in the IG community. Notably, 
in addition to her most recent role, Ms. Mazer served for 7 
years in the Justice Department's Office of Inspector General 
where, as the Chairman has noted, she led reviews of the FBI's 
use of national security letters. The Committee has also 
received several endorsement letters.
    At the same time, 1 year into Ms. Mazer's tenure as IG and 
after hearing concerns from some of her employees, the Director 
of National Intelligence commissioned a climate survey of the 
OIG staff.
    The results of that survey raise many questions about the 
nominees effectiveness as a manager and her impact on the 
office's productivity.
    Given these concerns, I asked the Committee staff to review 
the reports issued by the office during Ms. Mazer's tenure. The 
staff found a significant drop, by over half, in the number of 
substantial reports issued by the IG's office.
    The Committee also has received an on-the-record statement 
from the current Assistant Inspector General for Inspections at 
the Office of the Director of National Intelligence reiterating 
concerns about Ms. Mazer's management abilities.
    I approach this hearing and this nomination with both an 
open mind and many questions. Has the experience of managing a 
small IG office prepared the nominee for the challenge of 
managing one of the largest in the Federal Government?
    Is the nominee able to generate high-quality reports and 
audits quickly enough to be relevant and to lead to policy 
changes in time to fix problems? And what has she done to 
overcome the management challenges that were identified in the 
climate survey?
    I look forward to discussing these issues today with our 
witness.
    Let me end my opening statement by saying that I have no 
doubt that Ms. Mazer is an excellent attorney. That is not, 
however, the question before us.
    This Committee must determine if she has the ability to 
lead one of the largest and most important Inspector General 
offices in the entire government.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Collins.
    We will go now to the witness. Ms. Mazer has filed 
responses to a biographical and financial questionnaire, 
answered pre-hearing questions submitted by the Committee, and 
had her financial statements reviewed by the Office of 
Government Ethics.
    Without objection, this information will be made part of 
the hearing record with the exception of the financial data, 
which are on file and available for public inspection at the 
Committee's offices.
    Ms. Mazer, as I think you know, our Committee rules require 
that all witnesses at nomination hearings give their testimony 
under oath. So I would ask you to please stand and raise your 
right hand.
    Do you swear that the testimony you are about to give to 
this Committee will be the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Ms. Mazer. I do.
    Chairman Lieberman. Thank you. Please be seated. We would 
welcome your statement now, and you are also free to introduce 
any family or friends who are with you.

TESTIMONY OF ROSLYN A. MAZER \1\ TO BE INSPECTOR GENERAL, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Ms. Mazer. Chairman Lieberman, Ranking Member Collins, and 
Members of the Committee, thank you for the honor of appearing 
before you today as you consider my nomination to serve as the 
Inspector General of the Department of Homeland Security.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Mazer appears in the Appendix on 
page 30.
---------------------------------------------------------------------------
    I am deeply honored to have been nominated by the 
President, and I wish to thank Senator Cardin for taking the 
time from his busy schedule to be here today in support of my 
nomination.
    I appreciate the opportunity, Mr. Chairman, to introduce my 
family: My father, William Mazer; my husband, David Holzworth; 
my stepson, Jeremy Holzworth; and my godson, Paul Swerdlow.
    I am also fortunate to have other friends and colleagues 
from the Department of Justice and other places I have served 
attending the hearing today.
    DHS faces numerous challenges in achieving its vital 
mission to protect the homeland, as this Committee has well 
documented, particularly through its hearings. If confirmed, I 
believe that my progressive experience working in the 
Department of Justice and in the Office of the Director of 
National Intelligence, including over 9 years in the Inspector 
General community, and my earlier career in private law 
practice have prepared me to serve the Congress, the Secretary, 
and the public as the DHS Inspector General.
    At the Department of Justice, I participated as a senior 
leader in three large successful organizational elements, the 
Office of the Inspector General with about 450 personnel, the 
Criminal Division with over 600 personnel, and the DOJ's 
leadership offices.
    When serving in the DOJ OIG, I led many significant 
reviews, including two congressionally mandated reviews of the 
FBI's use of national security letters, which found serious 
abuses in the FBI's use of these authorities. The FBI has 
accepted the findings and acted promptly to remedy these 
abuses.
    At the ODNI, I managed the Inspector General organization 
and concurrently chaired the Intelligence Community Inspectors 
General Forum whose members include the DHS Inspector General.
    During my tenure at the ODNI IG, the office completed many 
hard-hitting, meaty financial audits, inspections, 
investigative reports, and evaluations on a variety of topics, 
including the use of national intelligence program funds by DHS 
intelligence community elements, acquisition and contractor 
oversight, the status of intelligence community integration, 
stewardship of appropriated funds, and a review of the IC 
civilian joint duty program.
    If confirmed, my familiarity with DHS and my experience 
leading cross-component and enterprise-wide reviews will serve 
me well.
    I began my tenure at the ODNI with a clear mission from the 
Director of National Intelligence to build and sustain the 
credibility of the relatively new Office of the Inspector 
General.
    In support of my efforts, the current Director of National 
Intelligence commissioned an office-wide assessment of a number 
of ODNI components, including the Inspector General's office. 
That assessment provided two valuable insights.
    First, it showed that change can be difficult for employees 
as well as leadership. Second, it demonstrated how valuable 
feedback is to successful change management.
    The survey gave voice to legitimate employee concerns about 
the way I was trying to improve the office, and I took those 
concerns to heart. I acted promptly with my senior leadership 
team to implement the recommendations, including 
recommendations to better support employees who had no previous 
training in the IG community.
    As recommended, I also availed myself of leadership 
development training. I believe the lessons learned from this 
exercise helped position me both for the success I enjoyed as 
ODNI Inspector General and, if confirmed, to be a successful 
leader at DHS.
    My dedication to the mission of the Inspector General 
community is borne out in my accomplishments in both offices. 
At the Department of Justice and the ODNI, all of my reports 
were relevant, were factually accurate and fair, were conducted 
independently and thoroughly, were concise and well-written, 
and contained targeted recommendations that were accepted by 
agency management.
    Moreover, at the ODNI, I established repeatable processes 
to mature and sustain the office, including a formal process to 
ensure that IG recommendations in cooperation with management 
are timely implemented and also the first office-wide standard 
operating procedures to guide our work.
    In conclusion, I know that DHS faces major challenges in 
addressing new, complex threats. Issues such as border 
corruption, DHS's cyber security mission, and the Federal 
Emergency Management Agency's (FEMA) capacity respond to 
disasters and manage its grants are enduring challenges.
    As DHS confronts these challenges, the Office of the 
Inspector General must be innovative, adaptive, and responsive. 
If confirmed, I pledge to protect the independence of the 
Office of the Inspector General; to be tenacious; to produce 
fair, accurate, relevant, and timely reports; to drive 
implementation of the recommendations; and to continue the 
effective dialogue between this Committee and the Office of the 
Inspector General.
    If I am confirmed, I am confident we can work together in 
collaboration in pursuit of DHS's vital mission to protect the 
homeland.
    Thank you once again, Mr. Chairman, Ranking Member Collins, 
for the opportunity to appear before you today. I look forward 
to your questions.
    Chairman Lieberman. Thanks very much, Ms. Mazer, for that 
statement.
    Let me begin with the standard three questions that we ask 
of all nominees. First, is there anything you are aware of in 
your background that might present a conflict of interest with 
the duties of the office to which you have been nominated?
    Ms. Mazer. No.
    Chairman Lieberman. Second, do you know anything personal 
or otherwise that would, in any way, prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Ms. Mazer. I do not.
    Chairman Lieberman. And finally, do you agree without 
reservation to respond to any reasonable summons to appear and 
testify before any duly constituted committee of Congress, if 
you are confirmed?
    Ms. Mazer. I do.
    Chairman Lieberman. Thank you very much. We will start the 
first round of questions, limited to 7 minutes for each member.
    There is no question that, based on your record, you come 
to us with a very impressive record of service to our 
government and to our Nation; and obviously based on that 
record and its various expressions, the President has nominated 
you for this position.
    But I think you know, as Senator Collins indicated in her 
opening statement, that there have been concerns expressed 
about whether you are prepared to do this job, and I want to 
give you an opportunity right up front to respond to those 
concerns.
    These come in a different form than we very often have. 
Frankly, sometimes when people come before us, there are 
allegations of ethical wrongdoing or personal wrongdoing. This 
is not at all the case with you.
    The fact is that most everybody we spoke to said that not 
only were you honorable, but they thought you were intelligent 
and capable.
    So, the concerns expressed when they were expressed by 
people were really about your management abilities. It is 
awkward to get into this in public, but I think we have to, and 
I want to give you an opportunity to respond.
    Some people have gone on record, as you know, with the 
Committee saying that you are a ``micro-manager'' who was 
unable to set clear priorities for the office and communicated 
ineffectively with the staff.
    This was not a large number of people, and in contrast, I 
want to hasten to say, with some really extraordinarily 
positive statements filed. I mentioned the former IG, Glenn 
Fine. Your former boss, Dennis Blair, former DNI, sent a very 
strong statement of support for you. He said you were the best 
IG that he had worked with in his 35-plus years.
    But there are these critiques. Others said that your 
management of the office had a serious impact on the 
performance of the IG's office at the Office of Director of 
National Intelligence, including delay in a number of reports 
and some attrition at the higher levels of the staff.
    So, let me see if I can break this down a little bit and 
ask you to respond to the micromanagement charge. I have a 
voice in my head. I can hear my wife speaking to me. We 
regularly accuse each other of being micromanagers. Perhaps in 
that relationship, it is acceptable.
    But some who have worked for you think that it has had an 
adverse affect on what you have done, and I wanted to give you 
a chance to respond to that and other critiques about your 
management style and frankly the relevant question about 
whether you can handle an IG office that is so much larger than 
the one that you oversaw at the DNI.
    Ms. Mazer. Thank you very much, Mr. Chairman, for the 
opportunity to address both questions.
    First, if I may, I would like to put the so-called climate 
survey in context.
    Chairman Lieberman. Yes.
    Ms. Mazer. As I mentioned, the former Director of National 
Intelligence recruited me to come to the ODNI Inspector 
General's Office to bring credibility and maturity to the 
office.
    He sought me out because he wanted me to bring the mature 
and successful practices from what is widely regarded, I 
believe, as one of the most successful IG offices, the 
Department of Justice, to the relatively new ODNI Inspector 
General's Office.
    The climate survey revealed and gave voice to genuine 
concerns on the part of my staff about how I was bringing about 
the change I was asked to accomplish, not the goals----
    Chairman Lieberman. Right.
    Ms. Mazer [continuing]. Not the objectives, but how I was 
going about it.
    As you know, the Inspectors General pride themselves on and 
their currency is their credibility. In order to sign out on 
any report, I had to ensure that the work was done objectively 
and independently, that it was done fairly, that management was 
given an adequate opportunity to comment on the statements in 
the report and to help tailor the recommendations.
    And all that said, the climate survey revealed that the way 
in which I was going about bringing these changes and 
accomplishing the maturation of the office created frustration.
    Many members of the staff that I inherited had no Inspector 
General background. So, as I said in my opening remarks, IGs 
are all about telling others how to improve themselves.
    That is what they do. They identify fraud, waste, and 
abuse. They identify efficiencies. They identify ways to 
improve agency performance.
    Well, here the spotlight was on me, and I took it very 
seriously. I embraced the recommendations. My senior leadership 
team set about to make changes immediately in conformity with 
those recommendations. And I personally availed myself of 
leadership development training. And I am a better manager for 
it.
    If I can turn to the scalability question.
    Chairman Lieberman. Yes.
    Ms. Mazer. Prior to joining the intelligence community in 
2009, I was part of the senior leadership in the Department of 
Justice, including 2 years in the 600-plus employee Criminal 
Division.
    There I led a very important initiative that involved 
multiple stakeholders across the Federal Government, the 
private sector, and international alliances to boost our 
protection of intellectual property rights.
    This was the first-ever initiative by the Department of 
Justice. It entailed employing and leveraging the resources of 
Customs, the State Department, the Patent and Trademark Office, 
the FBI, all of our intellectual property alliances, and even 
the G-8 and other international alliances. It was a very 
successful initiative, which has been built upon to this day.
    Likewise in the ODNI OIG, as you mentioned, Mr. Chairman, 
in your opening remarks, I had a duel mission, and this duel 
mission is highly relevant to the office for which I have been 
nominated. Not only did I manage a small IG office but 
concurrently chaired the Intelligence Community Inspectors 
General Forum, which, like the Department of Homeland Security, 
has a cross-enterprise and cross-mission role.
    In serving as chair of the ICIG Forum, we produced joint 
reports. We sponsored professional training. We shared best 
practices. We were able to energize that cross-enterprise forum 
to achieve and work to achieve the vision of this Committee and 
the Congress when it passed the Intelligence Reform and 
Terrorism Prevention Act.
    Those skills, working successfully cross-enterprise and 
cross-component, are the very skills that have been used and 
need to be used in the DHS Inspector General's office.
    Chairman Lieberman. My time is up in this round. I thank 
you. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Mr. Chairman, let me start by asking unanimous consent that 
the statement of Ed Haugland, who is the Assistant Inspector 
General for Inspections with the Office of Director of National 
Intelligence, be put in the record.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Haugland appears in the Appendix 
on page 108.
---------------------------------------------------------------------------
    Chairman Lieberman. Without objection, so ordered.
    Senator Collins. Ms. Mazer, I want to ask you a series of 
questions based on the prepared statement that we have received 
from Mr. Haugland.
    First of all, I think it is important to put this in some 
context. It is extremely unusual in my experience in my 15 
years in the Senate for a civil servant to go on record 
expressing concerns about a nominee.
    For this reason and given the senior position that Mr. 
Haugland has within the ODNI, I am concerned about his 
comments. I would start by noting that you hired him for his 
position, is that correct?
    Ms. Mazer. It is.
    Senator Collins. So, he was your choice for a senior 
position in the office. I would like to read some of his 
testimony and have you respond to it.
    ``Ms. Mazer's management led to such significant negative 
impacts on the personnel, mission, and morale of the ODNI OIG 
that I found it necessary to take action despite significant 
risks to my career and despite being on probation for 1 year as 
a new senior executive.''
    He goes on to say, ``Her actions were the major issue that 
resulted in minimized efficiency, effectiveness of the office's 
mission, significant morale issues, a large attrition of staff, 
and not one inspection being initiated during my tenure with 
her.''
    What is your response to these concerns?
    Ms. Mazer. First, I want to say, Senator Collins, that when 
I learned that Mr. Haugland had approached the Committee with 
views that, of course, are fully appropriate for him to 
express, I recused myself from any personnel action in relation 
to him because I did not want there to be any question that I, 
in any way, discouraged or acted in response to whatever 
information he provided to the Committee.
    Senator Collins. Well, you are no longer his supervisor, 
are you?
    Ms. Mazer. That is correct. But I think it is important 
that the Committee understand that when I learned that he had 
approached the Committee, I recused myself from his personnel 
review this year.
    I also declined to review that statement because I did not 
want there to be any question because I was still in the 
position when I learned he had provided this to the Committee. 
This is the first I am hearing about the content of it, but I 
am very happy to respond to it.
    But I wanted the Committee to understand that I took myself 
out of any review of his activities so there would be no 
question about any action I have taken in relation to his 
statements.
    Senator Collins. Well, I would like for you to respond to 
his statements. They are very serious and they echo many of the 
concerns that the independent consultant found when the 
consultant conducted the climate survey, and I would note that 
the concerns reflected in that survey were widespread among the 
staff. They did not originate with this one individual.
    So, what is your response?
    Ms. Mazer. I reject his conclusions. But as I said earlier, 
the climate survey revealed legitimate employee concerns, such 
as those expressed by Mr. Haugland, about the way I was going 
about achieving the objectives I was hired to achieve.
    Senator Collins. Well, I guess I would like to hear more 
specifics from you. For example, Mr. Haugland says that not one 
inspection was initiated during his tenure with you.
    Why is that?
    Ms. Mazer. Well, a number of inspections were underway when 
he joined the office, several very significant inspections, one 
of which has been completed, several of which are under way, 
and one of which was suspended for reasons that Mr. Haugland 
supported.
    So, the inspection that was recently completed is one that 
I believe is related to the topic of this Committee's hearing 
tomorrow, which is the ODNI's oversight of its contractor 
workforce.
    I know that this Committee is very interested in aggressive 
oversight of the contractor workforce across the intelligence 
community and the ODNI. During Mr. Haugland's tenure, that 
inspection was conducted and completed.
    In addition, there are several other inspections underway, 
and one inspection that was largely completed by the time Mr. 
Haugland joined my office has been suspended on the 
recommendation of Mr. Haugland because of certain dynamic 
circumstances going on with Director Clapper assuming duty in 
the ODNI. So, I do not believe that is fully accurate.
    Moreover, I would like to say that during Mr. Haugland's 
tenure and during my tenure in the 2\1/2\ years I have had the 
privilege of serving as ODNI Inspector General, we have 
completed many meaty, significant reports that go to the core 
mission of the ODNI--reports on acquisition oversight, 
contractor oversight, the status of integration of the 
intelligence community, the joint duty program, one of the main 
drivers of intelligence integration.
    In addition, we have done many investigative reports--
reports of serious misconduct and other types of improper 
activity. So, beyond the inspection division, our office has 
produced many meaty and significant reports that my staff and I 
are very proud of.
    Senator Collins. Well, my time has expired and there are 
additional people who are waiting to question. But I would note 
that when one excludes the regularly issued reports, such as 
the Federal Information Security Management Act reviews or the 
one-page data summaries, there is, in fact, a substantial drop 
in the number of substantial reports during your tenure.
    That is data that I know we have shared with you, but I 
will wait until the next round.
    Chairman Lieberman. Thank you, Senator Collins. Next is 
Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman.
    Ms. Mazer, I want to add my welcome to you and to your 
family attending this hearing and also to congratulate you on 
your nomination.
    Ms. Mazer. Thank you very much.
    Senator Akaka. Inspectors General have a unique and 
important role. IGs help agencies and Congress identify ways, 
as you have mentioned, to prevent waste, fraud, and abuse. They 
also protect employees from retaliation when they blow the 
whistle on waste and wrongdoing.
    Earlier this year, I re-introduced the bipartisan 
legislation to protect whistleblowers. So, I want you to know 
that, if confirmed, I hope you will continue to work with 
employees, as you stated you will, who come forward to expose 
waste, fraud, and abuse.
    Ms. Mazer, as you know, while the DHS has made progress, 
the Department still faces challenges that put it on the 
Government Accountability Office (GAO) high-risk list year 
after year, including human capital and contract management as 
well as integration of its information and financial systems. I 
look forward to working with you on these issues, and I have a 
few questions to ask you.
    When initiating a project, Ms. Mazer, it is important to 
design it in a way that encourages optimal use by an agency or 
Congress.
    How do you scope projects so they will be useful and 
timely?
    Ms. Mazer. This is a central function, Senator, as you 
know, of the IG office. The way to scope projects is to 
research the topic carefully, to meet with the affected 
elements, to understand what the issues are that they think 
need to be addressed, to look at the relevant reports generated 
by the Inspector General community on that topic if there are 
any, to sit down with a team going to conduct the review to 
determine how it can be done in the most efficient fashion.
    This is the garden-variety work that IGs do every day. It 
is also important, as the project is executed, to re-examine 
the scope of the project. If it turns out that the work needed 
to be done is far more significant than originally anticipated, 
it is often prudent to descope the project, to push out the 
project results in perhaps two or three segments so that agency 
management has the benefit in a timely fashion of the initial 
findings.
    So, scoping of projects is a very important function, and I 
appreciate, Senator, your recognizing how important that is for 
an IG office to understand.
    Senator Akaka. The role of an Inspector General is not only 
to investigate wrongdoing and waste but also to help agencies 
institute procedures to prevent those problems.
    What is your approach to identifying deficiencies and 
shortcomings without becoming too involved in operations and 
policy?
    Ms. Mazer. An effective Inspector General does not just 
document waste, fraud, and abuse. An effective Inspector 
General includes in his or her reports recommendations designed 
to prevent those practices from happening in the future. That 
is the sweet spot for an Inspector General.
    In all the reports I have worked on at the Department of 
Justice IG and then ODNI, we have been able to shape 
recommendations designed to do just that.
    Let me give you just two examples, and I believe this is 
responsive to Senator Collins' probing questions.
    The other judgment that IGs have to make is what to do with 
the discretionary part of their portfolio. Congress mandates 
IGs to perform all kinds of work. The DHS IG is under many 
mandates to perform certain work.
    But while serving as the ODNI Inspector General, I 
initiated two very significant audits. They concern the 
stewardship of appropriated funds. The first was an audit of 
the ODNI's fund balance with Treasury.
    As the Committee knows, a fund balance with Treasury is one 
of the three requirements to achieve auditability, along with 
property plans and equipment, and intergovernmental transfers.
    The report contained very significant findings and 
recommendations that have been fully implemented that will now 
enable the ODNI chief financial officer and the agency to move 
toward auditability.
    The second audit I initiated at ODNI IG was for the first 
time to examine DHS intelligence elements use of National 
Intelligence Program (NIP) funds. This was something we did on 
our own because the National Intelligence Program, of course, 
has funds distributed throughout many agencies in the 
government.
    We looked at DHS first. Our findings were very significant. 
The recommendations have been fully implemented, and those 
recommendations are well serving the ODNI Chief Financial 
Officer in providing better oversight of the use of NIP funds 
by other elements in our Federal Government.
    So, these are examples of the proactive approach that I 
have used successfully.
    Senator Akaka. Thank you very much.
    As an Inspector General, effectively communicating 
performance expectations and mutual trust with the workforce 
are critical to success. Please give specific examples of how 
you will accomplish these objectives with your Assistant 
Inspectors General and the rest of the IG workforce.
    Ms. Mazer. Thank you, Senator.
    Fortunately, I am very familiar with the DHS Office of the 
Inspector General. I have been exposed to that office, have 
worked with that office, and have been a hungry consumer of 
their reports.
    Because the DHS IG is a member of the ICIG Forum, the DHS 
IG and the current Acting IG have participated in the IC-wide 
work that I have led as chair of the ICIG Forum.
    By the same token, I am a member of the DHS IG's Homeland 
Security Round Table. This roundtable is under the auspices of 
the Council of the Inspectors General for Integrity and 
Efficiency and performs very important work for the homeland 
security enterprise.
    For example, I believe this Committee will hear tomorrow 
from the National Science Foundation Inspector General, Allison 
Lerner, who co-chaired a very significant report on the under 
utilization of suspension and debarment tools by Offices of 
Inspector General.
    So, I am very familiar with the DHS mission, the excellent 
work product, and most significantly the excellent relations 
that the DHS IG office has with this Committee, and I am 
confident that, if I am fortunate to be confirmed, I will be 
able to sustain and continue that excellent collaboration.
    Senator Akaka. Thank you very much for your responses.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Akaka. Senator 
Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thank you very much, Mr. Chairman.
    Ms. Mazer, welcome to you, and I understand I got here 
after the introductions were made, but I understand you are 
joined here by several members of your family including your 
husband, your father, and maybe a child or two. I am not sure, 
and maybe your extended family.
    I read over your background, and I came across the fact 
that you, in the earlier part of your career, wrote extensively 
on baseball. And if you ask anybody in the audience what 
happens almost 3 months to the day from today, they would tell 
you that pitchers and catchers report to spring training camps 
all over America.
    To what do you attribute your love for baseball?
    Ms. Mazer. Well, growing up with my wonderful father. He 
was actually more of a football fan than a baseball fan. But I 
grew up in the heyday of the Baltimore Orioles. I was a student 
at Western High School when the 1966 World Series team paraded 
down the street, the glory days of Brooks Robinson and Frank 
Robinson----
    Senator Carper. Those were great days.
    Ms. Mazer [continuing]. And Luis Aparicio. And oh, I wish 
they were back.
    Senator Carper. Well, they may be.
    One of the great things about the Orioles system was they 
had a terrific farm system. They grew their own talent, and the 
people who started off in Single-A, played Double-A, played 
Triple-A, and eventually did great things in the major leagues 
for the Orioles.
    Using a baseball metaphor, describe how you have been 
prepared for this job?
    Ms. Mazer. Well, I have been in the major leagues for many 
years. I started out in the minors, but I have grown with 
progressively greater experience and success in each position I 
have been fortunate to serve in.
    Senator Carper. Talk about your growth. As you came up from 
the minors to the majors, what helped aid and abet your growth 
and prepared you for these challenges?
    Ms. Mazer. Excellent mentors, big challenges. I worked 
under the leadership and mentorship of Glenn Fine. There was no 
finer Inspector General. I also have enjoyed the collaboration 
with fellow Inspectors General; and in preparation for possibly 
serving as DHS IG, I have called upon the Inspector General 
community to talk about the challenges of coming into a large 
IG office.
    So, I have spent a lot of time thinking about, studying 
for, preparing for, and doing the work of an Inspector General, 
and I look forward to the opportunity, if confirmed, to serve 
well.
    Senator Carper. Well, we need a major league Inspector 
General at DHS. Before my colleague Senator Coburn left, you 
had just testified and were responding to questions from our 
Chairman and Senator Collins, I leaned over to him and said, 
``She is very impressive, really conveys a sense of calmness 
and a lot of smarts.''
    In fact, I said to the Chairman, ``She really exudes the 
calm confidence of a Christian holding four aces,'' is the way 
I would describe it.
    Senator Coburn is gone. He left the room, not the building. 
He is like me, rabid about identifying wasteful spending. In 
fact, we all are on this Committee, and it is a big part of 
what we do, not just homeland security. We try to figure out 
how to spend money more cost effectively, figure out what 
works, and do more of that. Find out what does not work, and do 
less of that.
    We need partners at GAO. We need partners at the Office of 
Management and Budget (OMB). We need partners within the IGs 
across the Federal Government, and we need to work outside of 
the Federal Government with all sorts of groups that are 
focused on waste.
    One of the things that I think he is interested in, 
certainly I am interested in, is an assurance that you are 
going to be that kind of partner, not somebody who is working 
for us. That is not your job. But someone who is going to be 
out there working day in and day out with us in partnership to 
identify improper payments or another kind of wasteful 
spending, contractual arrangements that are going on or 
payments to vendors that we should not be making at all because 
they are on a do-not-pay list, and information technology (IT) 
projects that are behind budget and frankly not delivering.
    What we really need is to know that we are going to have 
somebody at the helm who is as passionate about this stuff as 
we are and will be a terrific partner with us in going after 
that kind of wasteful spending.
    He is not here right now to hear from you, but I would like 
for you just to take a minute or two and convey a sense of 
passion about this, if you will.
    Ms. Mazer. I am passionately committed to that mission and 
to working collaboratively with this Committee in furtherance 
of it. And I will say just for a moment the aspects of my 
record that ready me for that responsibility.
    In my private practice years, I worked on dozens of Federal 
criminal investigations--investigations of false claims, 
bribery, official corruption, many of the types of crimes that 
unfortunately the DHS OIG encounters.
    In the DOJ Inspector General's Office, I conducted many 
investigations of high-level misconduct, which led to 
suspension, removal, and discipline.
    In the ODNI IG Office, of course, I oversaw many 
investigations of serious misconduct and also investigations of 
waste, fraud, and abuse.
    From time to time, our findings were so significant that we 
did not wait until the reports were completed, but we did what 
Inspectors General are trained to do, which is to brief the 
findings to agency management so that they could swiftly employ 
measures to remedy those abuses.
    And finally, as the chair of the ICIG Forum, I sponsored 
professional training of IGs in the best practices of forensic 
auditing and other anti-fraud tools that arm the IGs to 
identify fraud at the front-end.
    I sponsored and attended that professional training; and if 
confirmed, I look forward to leveraging those experiences and 
bringing it to the DHS IG's Office.
    Senator Carper. I do not know if you will have a chance to 
meet with some of our colleagues, including Senator Coburn, who 
is not here. He and I have taken turns chairing a subcommittee 
that deals with Federal financial management. He is rabid about 
the things that I have mentioned. To the extent that you have 
the chance to meet with him personally, I urge you to do that.
    And last, I just want to wish you well. I appreciate your 
father for preparing you for a life of not just baseball, but a 
life of public service.
    And if I could use a baseball metaphor, I think one of the 
pieces that you wrote was called ``The Triple, Rounding Third 
Base,'' and we know that third base is not like getting home 
and scoring a run. We want you to make it to home plate.
    Mr. Chairman, when will we have the markup on this 
nomination? Do you know?
    Chairman Lieberman. It is not set yet. But obviously, we 
are not going to have it before Thanksgiving. So, perhaps the 
first or second week after the recess.
    Senator Carper. Take full advantage of whatever time lies 
between now and when we actually have a chance to vote on your 
nomination.
    I am very encouraged by what you had to say here. I just 
think it is important for some of our other colleagues who may 
have questions about you to have a chance to meet you 
personally, spend time with you, and get a sense of not only 
your gravitas, but your passion for some of these issues.
    Thank you for your willingness to serve and our thanks for 
your father and mother for preparing you and for some of these 
men behind you for being willing to share you with the people 
of our country. Thank you.
    Ms. Mazer. Thank you, Senator. My husband and I had a 
wonderful evening in Wilmington a few days ago.
    Senator Carper. Did you really. Well, we will talk about 
that later. Thank you. Come back and come to the beaches. We 
have great beaches, too. Thank you.
    Ms. Mazer. Thank you.
    Chairman Lieberman. Thank you, Senator Carper. I always 
look forward to Senator Carper's questioning because it is like 
a force of nature. We are not sure exactly where it is going.
    I will say that your father was quite serious throughout 
this hearing until the word baseball was mentioned. [Laughter.]
    And then a big smile.
    Senator Carper. And then he knew he was at a home game. 
This is a home game for him. Right?
    Chairman Lieberman. Thanks.
    Let me see if I can summarize your reaction because again 
this is kind of a perplexing and unusual situation. Nobody 
questions your honor. Nobody questions your intellect.
    So, there are some people who worked with you exclusively 
at the DNI IG office who are questioning your management 
abilities, and the Human Resources Research Organization 
(HumRRO) report made some critiques of your management style. 
Am I right that your response to that is to say that you 
accepted those critiques, you learned from them, and in fact, 
you went through some, is it fair to say, training in 
management skills and that, as a result, from a purely 
management point of view, you are prepared to take on this 
assignment for which the President has nominated you?
    Ms. Mazer. That is correct, and I will just add one 
additional point, Mr. Chairman.
    Chairman Lieberman. Please.
    Ms. Mazer. I did not just take the recommendations to 
heart, I implemented them. Some of them were already on track 
to be implemented because my then deputy had recommended them 
before the climate survey was conducted.
    But I did not just internalize them, though I did, I took 
steps with my senior leadership team to implement the 
recommendations. So, it was a useful exercise. The exercise 
validated legitimate concerns, and I believe Director Clapper 
and others have informed the Chairman and the Committee that I 
am a better manager for it.
    Chairman Lieberman. That is correct. I am going to leave 
that for now. Let me go onto another matter entirely.
    As I am sure you know, allegations of criminal misconduct 
by DHS employees, specifically those that work for CBP on the 
southwest border, as I mentioned earlier, continue to grow in 
quantity and seriousness.
    That is partly due to the rapid increase in staffing along 
the border, I presume, and perhaps partly due to the concerted 
effort by the drug cartels to target border officials to turn a 
blind eye as they bring drugs into the United States.
    I know that the DHS OIG has primary responsibility for 
reviewing allegations and determining whether to conduct 
investigations independently or seek assistance from ICE or CBP 
integrity offices but that there has been some tension among 
the different agencies on this matter.
    I also understand that the FBI currently leads 
approximately 20 border corruption task forces that focus on 
combating corruption along our border but that the DHS OIG does 
not participate in those task forces.
    I must say that I am disappointed that interagency 
rivalries appear to be hindering efforts to effectively combat 
corruption at these constituent units at DHS. I wanted to ask 
you if you are familiar with that, and if you are, or having 
heard it now from me, what steps you might take to address this 
issue if you are confirmed.
    Ms. Mazer. Thank you, Mr. Chairman.
    Border corruption, as this Committee has revealed in 
multiple hearings, is a very serious and growing challenge for 
the Department of Homeland Security.
    With the increase in Customs and Border Protection 
personnel has sorrowfully come a significant increase in border 
corruption cases. These cases are often big. They are ugly. 
They involve drugs. They involve human trafficking. It is one 
of the most serious challenges confronting the DHS enterprise.
    I have studied the DHS IG's reports to date. I have been 
heartened to read the transcript of this Committee's June 9, 
2011, hearing at which Acting DHS Inspector General Charles 
Edwards described, along with CBP Commissioner Alan Bersin, the 
memorandum of understanding (MOU) that has been entered into 
that will leverage the resources of the Customs and Border 
Protection personnel and the Office of the Inspector General.
    If confirmed, this will be a very high priority to see what 
the details are of the implementation of that MOU and to meet 
with the FBI and U.S. Attorney's Offices, something I have done 
successfully in my past tenure at the Department of Justice, to 
see what the opportunities and options are for participating in 
the border corruption task forces.
    Chairman Lieberman. Good. So, you would say that your goal 
would be to see that the DHS OIG be a participant on those task 
forces?
    Ms. Mazer. It would be premature to give you that 
commitment, Mr. Chairman, but I commit to you that I will study 
this as a matter of high priority and understand the options 
and the opportunities.
    Chairman Lieberman. On another subject in DHS, which has 
been a focus of this Committee, in your opening statement, you 
noted that as ODNI Inspector General, you led reviews that 
assessed the status of integration of two intelligence elements 
of DHS, the Office of Intelligence and Analysis (INA) and the 
Coast Guard's National Intelligence Element.
    Based on what you learned in those reviews, what would you 
say are the key challenges facing the Department of Homeland 
Security with respect to its intelligence activities?
    Ms. Mazer. Well, the DHS IG's office has already done 
significant unclassified reports on these topics, and the 
reports that I generated were classified, and of course, I am 
prepared to talk about them in a classified setting.
    But the DHS IG's office has already determined and studied 
the great opportunities and challenges for the Department of 
Intelligence and Analysis. The INA stands at the crossroads 
between the enormous amount of information that we collect at 
our borders, that the Transportation Security Administration 
collects, and fusing that information with the intelligence 
community's resources.
    The fusion centers have been the topic of many IG reviews, 
and I think the report card is somewhat uneven. Some fusion 
centers have been remarkably successful. Others have had 
shortfalls.
    So, I think the INA is a work in progress. From my own 
assessments, I think it is on a path toward achieving a very 
robust role in the intelligence community.
    Similarly, the Coast Guard National Intelligence Element 
has very unique expertise and capabilities that we were able to 
document in our recent assessment that was completed this year.
    So, I think the trajectory for both is positive, but 
challenges, including information technology, collection of 
U.S. person information, making sure that is done properly and 
in accordance with Executive Orders, remain.
    Chairman Lieberman. Well, I agree with you that the 
intelligence activities within the department are a work in 
progress. They are getting better.
    If you are confirmed, based on the experience you have had 
with intelligence, I hope you will take an active interest in 
this and make it a subject of oversight because I think you can 
help this function reach the potential and be a value-added 
component of DHS, not just a repetition of what exists 
elsewhere in the intelligence community. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    I want to return to Mr. Haugland's testimony. At one point 
he was talking about the difficulty in getting reports 
completed, and he gives an example in which he says that ``Ms. 
Mazer continued to edit and change the scope and contents of 
the report so that by the time it was released for review, it 
was no longer timely, relevant, or accurate.''
    That is a troubling charge because one of the advantages 
that we had at DHS when Richard Skinner was the IG is he very 
quickly turned around reports--they issued over 120 in a year's 
time--so that we in Congress could react either legislatively 
or by putting pressure on the Secretary to implement findings 
and recommendations.
    So, I am concerned about language in Mr. Haugland's 
testimony saying that you so delayed reports, they no longer 
were timely, relevant, or accurate and similar criticisms of 
the over-editing and micromanaging that are also found in the 
climate study.
    What have you done specifically to respond to those 
criticisms?
    Ms. Mazer. I do not agree with those conclusions, Senator. 
I signed out every report that met established, professional IG 
standards for accuracy, fairness, relevance, and actionable 
recommendations.
    There were many reports that were issued and finalized 
under my tenure. My record speaks for itself. But better than 
that, Senator, I think you have available to you and the 
Committee, the letters of support that have come from the chief 
management officers of the ODNI.
    They have documented in detail, I believe, the success of 
my tenure and the quality, timeliness, and relevance of my 
reports. Both DNI Blair and DNI Clapper have said I was among 
the best IGs they had ever worked with, if not the best.
    So, I think one measure of my effectiveness would be the 
views of agency management, and they regarded my tenure as a 
success. I believe Inspector General Fine is widely regarded as 
one of the most distinguished Inspectors General in the IG 
community, and I believe he has also offered a letter of 
support about the management of very complex, congressionally 
mandated reviews with statutory deadlines. We met every 
deadline.
    Senator Collins. You say you have met every deadline. But 
it is my understanding that there was a statutory deadline of 
October 8, 2011, for a study on e-waste that was mandated by 
the Intelligence Authorization Act for Fiscal Year 2010.
    I am told that the study was not completed on time. So, how 
can you say that, unless our information is wrong, you met 
every statutory deadline when that report was not completed?
    Ms. Mazer. I very much appreciate, Senator, the opportunity 
to respond to that.
    As the Committee knows, the Fiscal Year 2010 Intelligence 
Authorization Act directed three reviews to the Intelligence 
Community Inspector General.
    The Office of General Counsel at the ODNI provided a formal 
legal opinion to us that the obligation to produce those 
reports was not triggered until the Office of the Inspector 
General of the Intelligence Community was stood up.
    Nonetheless, I directed my staff to do baseline work, and 
we did very important work to position the ICIG, which is now 
in place as of last week, to undertake that congressionally 
directed action.
    So, in conformity with the legal advice given to my office 
by the Office of General Counsel, we did not regard that 
October 8 date as a date that ran to my office as the ODNI IG. 
But using appropriate Inspector General best practices, I 
ensured that our office did the baseline work to position the 
ICIG to begin that study.
    Senator Collins. So, I want to be very clear on this point. 
You are saying that you did not consider this to be a report 
that your office was mandated to be completed by October 8 of 
this year. Is that correct?
    Ms. Mazer. That is what the General Counsel told me.
    Senator Collins. Let me switch to another issue, which has 
to do with the productivity of the office. I started to get 
into that in the last round.
    There has been concern expressed about the drop in 
productivity under your leadership, and the statistics that 
both the majority and the minority staff collaborated on 
indicate that there were only three substantial reports that 
were completed in fiscal year 2010 and fiscal year 2011, under 
your tenure.
    It appears, as has been said in the interviews that we 
conducted, that there was a drop in the number of reports 
issued by your office. Would you respond to that concern?
    Ms. Mazer. Yes. Thank you for the opportunity again to 
respond to that question.
    In my experience in the IG community now going on 9-plus 
years, there are many useful measures to assess the 
productivity of an Inspector General's Office.
    I do not believe the best metric is the number of reports. 
I believe a better metric is the quality, relevance, and 
timeliness of the reports.
    Measured against that standard and considering the number 
of personnel in my office who had any IG background, I am quite 
proud of the number of reports issued during my tenure, and I 
am quite proud of the quality of the reports.
    I wish to add, Senator, that because the ODNI OIG is 
relatively new, I decided to devote a considerable amount of 
time to establishing repeatable processes that would make the 
office more efficient.
    For example, prior to my tenure, there was no established 
process to ensure that IG recommendations were implemented. 
Working closely with agency management, we established a formal 
process so that there is now a directive from the Director of 
National Intelligence that requires periodic meetings with 
affected elements who have open recommendations to ensure that 
those recommendations are implemented.
    By any standard in the IG community, making sure that IG 
recommendations are implemented is every bit as important, if 
not more important, than issuing individual reports.
    In addition, I served concurrently as chair of the ICIG 
Forum. That responsibility required me to make decisions about 
deploying my senior leadership and my staff to nourish those 
efforts.
    Senator Collins. Well, do you think serving as chair of 
that committee prevented you from doing the kind of quantity of 
reports that we would expect?
    Ms. Mazer. It was part of the workload.
    Senator Collins. Did you consider resigning as chairman so 
that you could devote more time to the IG job?
    Ms. Mazer. Absolutely not. I made choices on how to ensure 
that our senior leadership team and our staff as a whole 
nourished and supported the forum so that we could leverage the 
resources, just as the DNI is to leverage the resources across 
the intelligence community so that we work more effectively and 
efficiently.
    Senator Collins. Well, let me suggest to you that I do not 
see quality and quantity as being enemies. I think you can 
produce a quantity of reports that are all high-quality, and 
again I would direct you to the experience of Richard Skinner 
at DHS where the reports were almost always of very high 
quality, and yet there was a huge quantity of reports both 
congressionally directed but self-initiated as well.
    We have a saying in shipbuilding, which I am sure the 
Chairman is aware of, which is that quantity has a quality all 
of its own. The fact is, if you do one fabulous report or in 
your case three, let us say, top-notch, excellent reports, but 
you can only do three, you are not fulfilling the mission of 
the office. That means that too much is not being examined.
    It is truly a shipbuilding analogy that we use all the 
time. Even if you have three very capable submarines, 
destroyers, or whatever metaphor we want to use, that is not 
enough. That is why I am concerned about the drop in 
productivity.
    I want to turn to a different issue. You have talked a lot 
about policy work that you have done as the IG, and you have 
talked about the work you have done at the Department of 
Justice and the review of national security letters--important 
work to be sure.
    That is policy work. Those are policy reviews. In fact, the 
efforts to expose fraud, waste, mismanagement, abuse of 
taxpayer dollars and to identify improper payments are among 
the most important functions of an Inspector General, 
particularly at the Department of Homeland Security where $55 
billion is being spent.
    What is your experience? Give me examples of your 
experience in conducting those types of audits and 
investigations.
    When I asked you this in my office, you said your review of 
national security letters, but that is not the kind of audit 
for improper payments or fraud. That is compliance with the 
law. It is important. It is a policy issue. It is entirely 
different from going after overpayments to FEMA recipients, for 
example.
    Ms. Mazer. A number of my experiences in both private 
practice and in my government service of 16 years equip me to 
tackle the DHS fraud and abuse portfolio.
    As a partner in private law practice, I participated in 
many Federal criminal investigations, including investigations 
of fraud, contract fraud, bribery, and the kinds of charges 
that the DHS IG investigates.
    While serving in the DOJ Office of the Inspector General, I 
also led serious misconduct investigations and serious abuse 
investigations of the type conducted by the DHS IG's office.
    And as the ODNI IG, though our staff was relatively small, 
I oversaw many investigations of fraud and abuse that led to 
misconduct findings that led to discipline, which led to 
improved oversight.
    For example, the report I mentioned a few moments ago about 
contractor oversight revealed some significant shortfalls in 
the ODNI's oversight of its contractor workforce, its oversight 
of contracting officers technical representatives--very similar 
findings to those made by the DHS IG's office. These are the 
types of reports that the DHS IG's office generates. I am very 
familiar with this work. I have done this work. And I am 
looking forward, if confirmed, to continuing the excellent 
quantity and quality of work performed by the DHS IG's office 
in this realm.
    Senator Collins. Just one final question because I really 
want to focus in on this. Have you ever led or directed an 
audit or investigation that identified improper payments and 
led to their recovery?
    Ms. Mazer. No, not improper payments in the narrow sense of 
the Improper Payments Act. But I have overseen investigations 
in the ODNI IG's office of improper practices, including 
practices that led to waste, fraud, and abuse and that led to 
the termination of contracts, that led to improved oversight of 
the contractor workforce. That is directly relevant to the DHS 
IG's office investigative portfolio.
    Senator Collins. Thank you. Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Collins.
    Thank you, Ms. Mazer, for appearing before the Committee 
today. As I have said now twice, you present an unusual 
situation to the Committee.
    I wanted to indicate for the record that I intend to 
support your nomination. I think on balance, notwithstanding 
some of the criticisms that have come in, you have an exemplary 
record of public service, and it seems to me that you have 
responded to the constructive suggestions that were in the 
HumRRO report.
    But I think it probably will be important because there 
will be some concern among Committee Members that you take 
every advantage, I know you probably sought them already, to 
talk to Members of the Committee individually to allow them to 
ask you whatever is on their minds before the nomination comes 
to a vote.
    So, we will keep the record of this hearing open for 10 
days when you or Members of the Committee or others can 
introduce or offer statements or questions to be answered for 
the record.
    Senator Collins, do you have anything you would like to 
say?
    Senator Collins. I do not. Thank you, Mr. Chairman. I 
appreciated the extra time you gave me. This is a really 
important nomination.
    Chairman Lieberman. I agree, and you are quite welcome. It 
was more than appropriate. It was the responsibility of the 
Committee to give you that time.
    So, I thank you very much. I thank all your family members. 
I note some friends--somebody who went to school with my 
daughter. My decision to support your nomination has nothing to 
do with the presence of the Swerdlow family here.
    With that, the hearing is adjourned.
    [Whereupon, at 4:40 p.m., the Committee was adjourned.]




                            A P P E N D I X

                              ----------                              



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
